BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 unbound
copy and 40 bound copies of the foregoing Brief of the
States of Arizona, Alabama, Alaska, Arkansas,
Florida, Georgia, Idaho, Indiana, Kansas, Kentucky,
Louisiana, Mississippi, Missouri, Montana, Nebraska,
Oklahoma, South Carolina, South Dakota, Tennessee,
Texas, Utah, and West Virginia as Amici Curiae in
Support of Petitioner in 19-251 and 19-255, Americans
for Prosperity Foundation v. Xavier Becerra, Attorney
General of California, and Thomas More Law Center v.
Xavier Becerra, Attorney General of California, was
sent via Next Day Service to the U.S. Supreme Court,
and Next Day e-mail service to the following parties
listed below, this 1st day of March, 2021:
John J. Bursch
Alliance Defending Freedom
440 First Street NW
Suite 600
Washington, DC 20001
(616) 450-4235
jbursch@adflegal.org

Counsel for Thomas More Law Center
Derek L. Shaffer
Quinn Emanuel Urquhart & Sullivan, LLP
1300 1 Street NW, Suite 900
Washington, DC 20005
(202) 538-8000
derekshaffer@quinnemanuel.com

Counsel for Americans for Prosperity Foundation

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED
(800) 890.5001

www.beckergallagher.com

! 8790 Governor's Hill Drive
Suite l 02
Cincinnati, Ohio 45249

Franklin Square
' 1300 I Street, NW, Suite 400E

Washington, DC 20005

Aimee Athena Feinberg
California Department of Justice
1300 1 Street
Sacramento, CA 95814
(915) 210-6003
Aimee. Feinberg@doj.ca.gov
Counsel for Xavier Becerra, in his offical capacity as
the Attorney General of California
Drew C. Ensign
Deputy Solicitor General
Counsel of Record
Office of the Arizona
Attorney General
2005 N. Central Ave.
Phoenix, AZ 85004
(602) 542-5025
Drew .Ensign@azag.gov
Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on March 1, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

Daro: - ; : : ; ;

~

Notary Public
[seal]

JOHN D. GALLAGHER

--'
'

Notary Pu~c. State of Ohio
My Commission Expires
February 14, ;:in,:3

'

